UpcHuURCH BAILEY AND UPCHURCH

SIDNEY F, ANSBACHER eel riete eel FRANK D. UPCHURCH, SR.
JOHN D. BAILEY, JR. 780 North P de L Boul d (1894-1986)
ALLYSON BOYLES CURRIE alain nailer tal

St. Augustine, Florida 32084
AMANDA Y. DEAN www.UBULaw.com

HAMILTON D. UPCHURCH
STEPHEN A. FAUSTINI Telephone (904) 829.9066 (1925-2008)
KATHERINE GAERTNER JONES

Facsimile (904) 825-4862
MICHAEL A. SIRAGUSA
Please reply to:

FRANK D. UPCHURCH III Post Office Drawer 3007 FRANK D. UPCHURCH, JR.
DONALD W. WALLIS St. Augustine, Florida 32085-3007 (1922-2012)

October 16, 2019

Honorable Scott S. Harris

Clerk, Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: Steven T. Waltner and Sarah V. Waltner v. Commissioner of Internal Revenue
Docket No. 19-488

Dear Mr. Harris:

Pursuant to Supreme Court Rule 37.2(a), Petitioners Steven T. Waltner and Sarah V.
Waltner hereby give blanket consent to the submission of amicus curiae briefs prior to the
Court’s consideration of their petition for a writ of certiorari in the above-referenced case,
regardless of which party, or even if neither party, is supported by any of those briefs.

Sincerely,
\erebel Ww) vw oly

ce: Noel J. Francisco, Solicitor General
Counsel for Respondent Commissioner of Internal Revenue
